                                                                 Issue Date
                                                                 September 30, 2009
                                                                 Audit Report Number
                                                                     2009-DP-0007




TO:          Nelson Bregón, General Deputy Assistant Secretary for Community Planning
             and Development, D



FROM:      Hanh Do, Director, Information Systems Audit Division, GAA

           Review of Selected Controls within the Disaster Recovery Grant Reporting
SUBJECT:
           System


                                   HIGHLIGHTS

 What We Audited and Why

      We audited selected controls within the Disaster Recovery Grant Reporting system
      (DRGR) related to Neighborhood Stabilization Program (NSP) funding because of the
      emergency and the transparency nature of the Housing and Economic Recovery Act and
      the American Recovery and Reinvestment Act, respectively, and corresponding statutory
      timeframes. DRGR is an existing system that was modified to track close to $5.9 billion
      dollars of NSP funds, the majority of which must be obligated and expended within two
      years. NSP I funding totaled $3.9 billion. The American Recovery and Reinvestment
      Act of 2009 (ARRA) revised some of the program rules and appropriated an additional
      $2 billion for the program, to be competitively awarded. Following the initiation of our
      audit, the Office of Community Planning and Development (CPD) decided to use DRGR
      to track the $2 billion in funding allocated to NSP II, in addition to the $3.9 billion
      allocated to NSP I. Although the U.S. Department of Housing and Urban Development
      (HUD) has made significant modifications to DRGR within the last 18 months, HUD did
      not have sufficient time to develop a new system or modify an existing system to
      perfectly fit NSP. We focused our review to assess risk assessment updates and whether
      NSP funds were properly safeguarded by the access controls related to DRGR.




                                              1
